      Department of Homeland Security



      The Performance of 287(g) Agreements FY 2012 

                       Follow-Up 





OIG-12-130                                September 2012

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                 Washington, DC 20528 / www,oig,dhs,goY



                                    September 25, 2012


MEMORANDUM FOR:              Timothy Moynihan
                             Assistant Director
                             Office of Professional Responsibility
                             Immigration and Customs Enforcement

                             Gary Mead
                             Executive Associate Director
                             Enforcement and Removal Operations
                             Immigration and Customs Enforcement

                             Radha Sekar
                             Acting Executive Director
                             Management and Administration
                             Immigration and Customs Enforcement

FROM:                        Deborah L. Outten-Mills
                             Acting Assistant Inspector General for Inspections

SUBJECT:                     The Performance of 287(g) Agreements FY 2012 Follow-Up

Attached for your information is our final letter report, The Performance of 287(g) Agreements
FY 2012 Follow-Up. We incorporated the formal comments from Immigration and Customs
Enforcement in the final report.

The report contains two recommendations aimed at improving the 287(g) program operations.
Your office concurred with both recommendations. As prescribed by the Department of
Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of Inspector
General Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is received and
evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Horneland Security


responsibility over the Department of Homeland Security_ We will post the report on our
website for public dissemination.

Major contributors to this report are Dagmar Firth, Senior Inspector; Jasmine Davis, Inspector;
and Brendan Bacon, Inspector.

Please call me with any questions, or your staff may contact Dagmar Firth, Senior Inspector, at
(202) 254-4045.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                                   Washington, DC 20528 / www.oig.dhs.gov


Background
In September 1996, Congress authorized the executive branch to delegate immigration
enforcement authorities to State and local government agencies. The IllegalfImmigrationf
ReformfandfImmigrantfResponsibilityfActfoff19961 amended the Immigrationfandf
NationalityfAct by adding section 287(g).2 Under this section, the Department of
Homeland Security’s Immigration and Customs Enforcement (ICE) is authorized to enter
into memorandums of agreement (MOAs) that describe the terms and conditions for
participating law enforcement agency (LEA) personnel to function as immigration
officers. MOAs also designate the 287(g) program model for each participating agency.3
As of August 2012, ICE had 64 MOAs in 24 States, with 35 Detention Models, 20 Task
Force Officer Models, and 9 Joint Models.4

ICE Enforcement and Removal Operations (ERO) maintains day-to-day supervision of the
287(g) program. Within the ICE Office of Professional Responsibility (OPR), the 287(g)
Inspections Unit assesses the effectiveness of ICE field offices in supervising and
supporting 287(g) programs, as well as ICE and LEA compliance with program policies
and MOA requirements. The results of 287(g) inspection reviews provide ICE
management with information on the administration of the program by local ICE offices
and LEAs.

Results of Review
Our report provides updated information on the status of ICE efforts to address
recommendations in our prior reports, ThefPerformancefoff287(g)fAgreements,fThef
Performancefoff287(g)fAgreementsfReportfUpdate,fand ThefPerformancefoff287(g)f
FYf2011fUpdate. In addition, we assessed the 287(g) Inspections Unit’s continued
efforts to evaluate conformance with MOAs between local ICE offices and LEAs.

Since our initial 287(g) report in March 2010, ICE has made significant progress in
implementing our recommendations. To close a recommendation, we must agree with
the actions ICE has taken to resolve our concerns. Of the 62 total recommendations


                                   

1
  P.L. 104-208, sec. 133, Sept. 30, 1996. 

2
  Codified at 8 U.S.C. 1357(g). 

3
  Models include the Task Force Officer Model; the Detention Model; and the Joint Model, which is a 

combination of both. 

4
  In June 2012, ICE terminated several of the Arizona Law Enforcement Agency agreements. Four of these 

were terminated in their entirety, while three retained their Jail Enforcement authority. 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


included in our prior reports, 60 have been closed based on corrective action plans and 

supporting documentation provided by ICE. 

As part of this review, we identified staffing and budgetary issues that need to be 

addressed to further enhance ICE’s ability to achieve program objectives. 


ICE Needs To Continue Efforts To Implement Remaining OIG Recommendations

Our March 2010 report, ThefPerformancefoff287(g)fAgreements, included 33
recommendations for ICE to strengthen management controls and improve its program
oversight. Based on our review of the corrective action plan and supporting
documentation provided by ICE, we have closed all recommendations for this report.

ThefPerformancefoff287(g)fAgreementsfReportfUpdate, dated September 2010, included
16 recommendations related to (1) management controls and accountability over 287(g)
program funding, and (2) achieving goals for removing criminal aliens who pose a threat
to public safety. Based on our analysis of documentation provided by ICE, we have
closed all recommendations in this report.

ThefPerformancefoff287(g)fAgreementsfFYf2011fUpdate, dated September 2011,
included 13 recommendations for ICE to provide training for inspectors, implement
comprehensive analytical tools for the inspections review process, and revise MOAs
with LEAs to ensure an understanding of 287(g) program requirements. Based on our
analysis of the documentation provided by ICE, we have closed 11 recommendations.

Corrective actions that ICE has planned or taken for these recommendations include the
following:

   •	 Developing training materials for program operations;
   •	 Establishing directives to ensure the suitability of 287(g) officers;
   •	 Improving the review process for extending or terminating MOAs with LEAs;
   •	 Developing guidance to standardize communications between ICE supervisors
      and 287(g) officers;
   •	 Establishing a process to determine whether 287(g) operations are meeting
      287(g) goals; and
   •	 Developing procedures to ensure that OPR Inspection Reports are distributed to
      field offices in a timely manner.

For the two open recommendations described in appendix C, ICE provided corrective
action plans and supporting documentation. These recommendations can be closed
pending our receipt and review of documents, as indicated in the ICE response.



www.oig.dhs.gov                             2                             	    OIG-12-130

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


287(g) Inspections Unit Operations Have Been Improved

Our September 2011 report, ThefPerformancefoff287(g)fAgreementsfFYf2011fUpdate,
identified specific challenges that reduced the effectiveness of the 287(g) review
process. As part of this review, we noted improvements in overall 287(g) Inspections
Unit operations that strengthen management controls and promote more efficient and
effective inspections.

In fiscal year (FY) 2012, OPR developed a staffing model that included permanent team
leaders with a broad-based knowledge of 287(g) program operations, inspection
procedures, and report writing. Team leaders are also responsible for training new
members of the inspection teams and providing guidance to existing members.

OPR established focus reviews that deploy smaller teams to follow up on deficiencies
and areas of concern identified during previous inspections. These reviews have
minimized the resources needed to determine LEA compliance with program
requirements by assessing recommendation follow-up actions.

OPR Staffing Determinations Need To Be Completed and Implemented

In FY 2012, the ICE Office of Human Capital initiated various studies in OPR to address
issues that include balancing the workforce, supervisory ratios, and whether current job
series classifications accurately reflect the nature of the work performed. For the
review of the 287(g) Inspections Unit, the study will determine the appropriate job
series classification based on the scope of work, and the type of investigative and other
skills needed to perform daily tasks. Its results will be used to help determine how the
287(g) Inspections Unit should be staffed.

As of August 2012, the results of the classification study had not been finalized.
Therefore, all hiring efforts have been suspended, leaving several vacant positions.
According to OPR officials, discussions of the study have been minimal, and the
uncertainty is having a negative effect on employee morale.

The 287(g) Inspections Unit performs a vital role in conducting reviews to assess
compliance with MOA requirements. As such, staffing recommendations to be provided
by the Office of Human Capital should be finalized and implemented during FY 2013.
This will help to ensure the continuity of the 287(g) Inspections Unit’s oversight role in
providing ICE management with feedback on the administration of the program.




www.oig.dhs.gov                             3                                  OIG-12-130

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Language in the FY 2013 Budget Submission Does Not Accurately Reflect the
Relationship Between Program Functions

During our fieldwork, we reviewed the FY 2013 ICE Budget Justification submitted to
Congress as part of the President’s Budget. The justification included a program
decrease of $17 million for realignment and reduction of the 287(g) program. The
justification for the reduction stated that “Given the nationwide deployment of the
Secure Communities interoperability system by the end of FY 2012, it will no longer be
necessary to maintain the more costly and less effective 287(g) program.”

Contrary to the relationship between the 287(g) and Secure Communities Programs
described in the FY 2013 budget justification, discussions with 287(g) officials indicated
that the functions of these programs are distinct and separate. While ICE’s removal
process includes identifying, interviewing, processing, and removing aliens, Secure
Communities only assists with identifying aliens. In contrast, 287(g) officers can identify,
interview, and process removable aliens, and are considered a force multiplier for ICE
field operations. However, program managers said that underperforming 287(g)
agreements that do not provide sufficient benefits should be terminated.

Language in the current budget justification may lead to a misunderstanding of program
missions. We are bringing this issue to management’s attention without making a
recommendation. However, the Office of the Chief Financial Officer needs to ensure
that sufficient explanations of program functions are provided in budget submission
documentation. This will minimize the potential for inappropriate revisions to budget
allocations based on a misunderstanding of relevant program information.

Conclusion
This review focused on the status of recommendations from our prior 287(g) reviews,
and efforts by the OPR 287(g) Inspections Unit to assess compliance with MOAs. ICE has
provided corrective action plans that satisfy 60 of the 62 recommendations from our
prior reports. In addition, OPR has continuously improved its operational capabilities by
enhancing its staffing strategy and modifying the review structure to include follow-up
assessments.

Results of the classification study conducted by the Office of Human Capital need to be
finalized and implemented during FY 2013 to ensure that the 287(g) Inspections Unit
can continue to fulfill its operational goals. In addition, we identified language in the
FY 2013 budget submission to Congress that could lead to a misinterpretation of 287(g)




www.oig.dhs.gov                              4                                   OIG-12-130

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


and Secure Communities functions. As a result, the 287(g) program could be subjected
to budget reductions based on a misunderstanding of program functions.


Recommendation
We recommend that the Executive Associate Director, Office of Management and
Administration:

Recommendation #1:

Provide the Office of Professional Responsibility with the classification study results by
December 31, 2012.

We recommend that the Assistant Director, Office of Professional Responsibility,
Immigration and Customs Enforcement:

Recommendation #2:

If needed, develop a transition plan to complete any reclassification efforts during
FY 2013.

Management Comments and OIG Analysis

Recommendation #1:

ICE Response: ICE concurs. The ICE Office of Human Capital has been working with OPR
management to gather information to develop solid position descriptions that accurately
reflect the inspection work performed in OPR. The position descriptions have not been
finalized at this time, but we see no reason why the results cannot be provided to OPR
by December 31, 2012.

OIG Analysis: Pending notification that the classification study results have been
provided to OPR, this recommendation remains unresolved and open.

Recommendation #2:

ICE Response: ICE concurs. If the final results indicate that law enforcement officers’
coverage is warranted, then the completion and final results may be impacted by the
required DHS review, as necessary.



www.oig.dhs.gov                              5                                   OIG-12-130

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


OIG Analysis: Pending receipt of a transition plan to complete reclassification efforts,
this recommendation remains unresolved and open.




www.oig.dhs.gov                             6                                   OIG-12-130

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This review is congressionally mandated by the ConsolidatedfAppropriationsfAct,f2012
(Public Law 112-74), requiring that DHS OIG review the delegation of law enforcement
authority agreements that ICE enters into pursuant to section 287(g) of the Immigrationf
andfNationalityfAct (8 U.S.C. 1357(g)). Our objectives were to assess (1) ICE’s progress
in addressing the recommendations in our reports ThefPerformancefoff287(g)f
Agreements,fOIG-10-63; ThefPerformancefoff287(g)fAgreementsfReportfUpdate,fOIG-10-
124; and ThefPerformancefoff287(g)fFYf2011fUpdate,fOIG-11-119; and (2) ICE’s 287(g)
Inspections Unit’s continued efforts to assess partnering LEAs’ compliance with 287(g)
MOAs.

We conducted fieldwork from June to August 2012, and interviewed OPR and ERO
officials and OPR 287(g) inspectors. We also reviewed ICE’s actions to address
recommendations from our prior reviews of 287(g) operation.

We conducted this review under the authority of the InspectorfGeneralfActfoff1978, as
amended, and according to the Quality Standards for Inspections issued by the Council
of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                            7                                  OIG-12-130

                                            OFFICE OF INSPECTOR GENERAL
                                                       Department of Homeland Security


Appendix B
Management Comments to the Draft Letter Report


                                                                                                              t . ~ D~p.ooL"tlMnI oflh, m..bu.d   S,,~ ,,';.:y

                                                                                                              ~tll) 12" SI.-v.:L S''!;




                                                                                          .USImmi .
                                                                                                              WUJ\~ LOO,   VI.:   ~') ~~ 6



                                                                                                         :,    . .    gran on
                                                                                                              andCusroms
                                                                                                  n .~        Enforcement

                                                                     Seprerr.ber l2. 2012


          MEMORANVU~·lIUK :                         V<bomJl L. Ouuon·Mill,
                                                    Acting Assistant luSJ)':ctQf Gcu.-:ral for !us\."X:ctions
                                                    onit:t:   nrrn~pOL'l.mCt:n


          rROM:                                     Radha C. Schll·
                                                    ClLi~rri LkHlL.:i ul      Ilkt:r
                                                                             \
          ~tm.lE(,T:                                "fI,.·famlgcml:nt R';':!'>l~ W OIG Dmit. ''The Pcrfuml:mcc of28i(g)
                                                    A~TCemcnLs rv 2012 (:pd.J.lt:"' c.l.:..tLet1 Au~u~t 2S. 2012


          C.s.irtlmigrution am!            ClL';l(l m~   Ji:nron:emL:nl (JeF.) ~"P"PTC!'!;Jtlc'j 11"11: (lpporhlllit::, to comment (In
          thc drnft fe-port , v.,.'-e    h;.'L\·~   reviewed and COIKur with (h~ Lwu Tt't:(JTTlm~d.ul;l)u ~.

               I. 11rm·i de the O ITice o rPrllfcs,.;i(mul                 "Rt:!'ITL,msihilil~'   (OPR) "\.\·ilh I.he dH<;xific)Jlinn study
                  rCS1.J tn by December 31,2(.112 ,

                   ICt-: ())I C hil.. . bt:~1L \H lrJ... ilL~ ....-:111 OPR m'lf · I~~HLt:nll Ll g)Jlht:rin ~unll\Jl i ~m lu dcwlop
                   5!Jlid position dcs.cr.ptioDS that (locumMly reflect the inspeclion wurk poerformed in OrR.
                   Tn!.! pmiJi(lTl (h:&l.:rivti~lru rul\'';': l:(lt b',:cn fin.1.1izcd at this tim..::. but wc S~ no reason . .v.'l}'
                   th~ re~ult.-.; o.:<J.nTUll he pm .... itit:J t(1 O PR b) net.:~m hc T 11: '2(1 ~,


              "2   rr n:=oot'J. dc\·dup.'I l.ran~iLion plan 10 c(lmplct.; ::my ~ . ~5S1fic(ltion effolts durmg 1-""1
                   2Ull.

                    If the firlul      result~      im.lical..c !hili Illw enf41T:.::...-mcnl Clftit.:l.."1' (1 .F-O) um·I....
                                                                                                                           . Hf.c ill warmntr:d.
                   thcn thc compiction "nd fu:i.ll tl;::s.u.irs rnay be .imp;.'L(:ted by tlte required LJI IS re ..·je\.... as
                   nCL.!C:-;;'laT ~,




          ICh \,"il continue workiuQ: to resolve alt Idemlfied irc-ms..

          SJ\(JuId you    hLt~·~ <.jut....li un!\     ur t.;llncems, plca~e t.:Llnt.'H.:t f\·1ichae1 \"loy.         oro Pon fo lio "fI,.l1l1agcr, at
          (202) 732-6263. or ~ y C'-mail at :O"1:chacJ.M\........ a:dh~. oo ....




www.oig.dhs.gov                                                                     8                                                                            OIG-12-130

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix C
Status of Recommendations from OIG Report OIG-10-63, ThefPerformancefoff287(g)f
Agreements, dated March 2010

Summary:

33 Total Recommendations

33 Closed
 0 Resolved and Open
 0 Unresolved and Open


Status of Recommendations from OIG Report OIG-10-124, ThefPerformancefoff287(g)f
AgreementsfUpdate, dated September 2010

Summary:

16 Total Recommendations

16 Closed
 0 Resolved and Open
 0 Unresolved and Open


Status of Recommendations from OIG Report OIG-11-119, ThefPerformancefoff287(g)f
AgreementsfFYf2011fUpdate, dated September 2011

Summary:

13 Total Recommendations

11 Closed
 2 Resolved and Open
 0 Unresolved and Open

Recommendation #8: Assess the current MOA to identify language that does not
(1) clearly specify program requirements or (2) provide a measurable standard for
assessing compliance.



www.oig.dhs.gov                            9                                 OIG-12-130

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


ICEfResponse: ICE concurs with Recommendation #8. Please reference our response to
Recommendation #9.

OIGfAnalysis: This recommendation is resolved and open pending our receipt and
review of the assessment results.

ICE Response Update: 287(g) Unit is reviewing the MOA language and preparing a
description of the compliance assessment plan.

OIG Analysis Update: This recommendation is resolved and open pending our receipt
and review of the assessment results.

Recommendation #9: Develop MOA language that clearly specifies program
requirements, provides a measurable standard for assessing compliance, and eliminates
the need to interpret program requirements.

ICEfResponse: ICE concurs with Recommendation #9. ICE will review the MOA language
and assess whether program requirements can be described more clearly and
compliance measures can be defined. Once the assessment has been completed, ICE
will provide the results and any resulting language modifications to the OIG.

OIGfAnalysis: This recommendation is resolved and open, pending our receipt and
review of the assessment results.

ICE Response Update: MOA language modification suggestions will be forwarded to
OPLA based on the assessment in recommendation #8.

OIG Analysis Update: This recommendation is resolved and open pending our receipt
and review of the new language modifications for the MOA.




www.oig.dhs.gov                          10                                OIG-12-130

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix D
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Director, ICE
DHS Component Liaison (2)
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               11                        OIG-12-130

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
